uoum

7:T8'-<*9iOOOQ^MPU Docurfi6W8B0/'FHWeB/29/2©- Pfel^ 1 of 2 Pageid#: 1485

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1999

MARK T. GRANT,
Plaintiff - Appellant,
v.
THE CITY OF ROANOKE, VIRGINIA,
Defendant - Appellee.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. Michael F. Urbanski, District Judge. (7:16-cv-00007-MFU)

Submitted: June 22, 2020

Decided: June 29, 2020

Before MOTZ and KEENAN, Circuit Judges, and TRAXLER, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.

Mark T- Grant, Appellant Pro Se. David L. Collins, OFFICE OF THE CITY ATTORNEY
FOR THE CITY OF ROANOKE, Roanoke, Virginia, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

DocumbW-8W1 FWcf06/29/20•

UOUMH

2 Of 2 Pageid#: 1486

PER CURIAM:
Mark T. Grant appeals the district court’s orders denying relief on his 42 U.S.C.
§ 1983 (2018) complaint.* We have reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the district court. Grant v. City of
Roanoke, No. 7:16-cv-00007-MFU (W.D. Va. July 18, 2017; Nov. 7, 2017; and Mar. 19,
2019). We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

* The district court determined that Grant was entitled to reopening of his time to
file an appeal under Fed. R. App. P. 4(a)(6). The City does not challenge this finding on
appeal. Accordingly, we deny the City’s motion to dismiss the appeal as untimely.
2

CLERK’S OFFICE U.S. DIST. COURT
AT ROANOKE, VA
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA^1
ROANOKE DIVISION
MARK T. GRANT,
Plaintiff,
v.
CITY OF ROANOKE,
Defendant.

)
)
)

)

Civil Action No. 7:16-CV-00007

)
)
)
)
)
)

By: Hon. Michael F. Urbanski
Chief United States District Judge

ORDER
For the reasons set forth in the accompanying Memorandum Opinion, the court
GRANTS judgment to the defendant on the plaintiff’s procedural due process claim.
It is SO ORDERED.
Entered:

03 - /i'- z-&i ?

Michael F. U:
.S.
ChiefUfrifed StatesTDistrict Judge

Case 7:16-cv-00007-MFU Document 63 Filed 03/19/19 Page 1 of 1 Pageid#: 773

CLERK'S OFFICE U.S. DIST. COURT
AT ROANOKE, VA
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MARK T. GRANT,
Plaintiff,

)
)
)

)
v.

JULIACrQUDLEY, clerk
BY:
:pi

Civil Action No. 7:16-CV-00007

)

)
)

CITY OF ROANOKE,

)

Defendant.

)
)

By: Hon. Michael F. Urbanski
Chief United States District Judge

MEMORANDUM OPINION
Plaintiff Mark T. Grant, proceeding pro se, filed this action under 42 U.S.C. § 1983
against the City of Roanoke (the “City”), alleging that the City improperly retained $26,257.30
from the sale of certain real property. The property at issue was previously rehabilitated for
occupancy using funds awarded to the City through the federal HOME Investment
Partnerships Program. Grant claimed that the City violated regulations implementing the
HOME Investment Partnerships Act (“HOME Act”) and his right to due process.
The case was initially assigned to Senior United States District Judge Glen E. Conrad.
On July 18, 2017, Judge Conrad ruled that Grant had no viable claim for damages under the
HOME Act itself or § 1983 for alleged violations of the Act and its implementing regulations.
Accordingly, Judge Conrad granted the City’s motion for summary judgment with respect to
those claims. The City then filed a supplemental motion for summary judgment on the
plaintiffs claim that he was denied due process. On November 7, 2017, that motion was
granted in part and denied in part. Finding issues of fact as to whether Grant received adequate
notice and an opportunity to be heard, Judge Conrad denied the City’s motion for summary

Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 1 of 16 Pageid#: 757

judgment on the issue of procedural due process. However, to the extent that the complaint
could be read to assert a violation of substantive due process, Judge Conrad concluded that the
City was entitled to summary judgment on such claim.
Following an unsuccessful attempt at mediation, the case was transferred to the
undersigned for the conduct of all further proceedings. On December 17, 2018, the parties
appeared before the court for a bench trial on the procedural due process claim. Having
considered all of the evidence together with the applicable law, the court issues this
memorandum opinion, which sets forth its findings of fact and conclusions of law pursuant to
Federal Rule of Civil Procedure 52(a). For the reasons stated herein, the court will enter
judgment in favor of the City on the remaining claim.
FINDINGS OF FACT
1.

The City participates in the HOME Investment Partnerships Program

(“HOME Program”), a federal grant program that provides funding to states and localities to
be used to increase the supply of affordable housing available for low and moderate income
residents. The HOME Program is administered at the federal level by the Department of
Housing and Urban Development (“HUD”).
2.

In 2002, the City partnered with Blue Ridge Housing Development

Corporation (“BRHDC”) to develop and rehabilitate housing for sale to purchasers meeting
HUD’s income criteria. Pursuant to the partnership agreement, the City gave BRHDC
approximately $101,119.05 in HOME funds to acquire and develop property located in the
City at 607 Bullitt Avenue (“the Property”).

2
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 2 of 16 Pageid#: 758

3.

In late 2004 or early 2005, the plaintiff and his wife, Lori M. Grant, began

looking for a house to buy in Roanoke. They planned to move to the area from New York after
the plaintiff completed his service in the United States Army. While driving around Roanoke
with a real estate agent, the Grants saw a “for sale” sign in front of the Property, which was
new and in their price range. After touring the Property with their agent, the Grants expressed
an interest in purchasing it.
4.

The Grants met with representatives of BRHDC and were found to satisfy the

eligibility requirements of the HOME Program. On May 20, 2005, the Grants bought the
I
Property from BRHDC for $85,000.00. The funds used to pay the purchase price and
additional closing costs were derived from the following sources: (1) an $80,000.00 mortgage
loan; (2) a $2,200 HOME grant from the Virginia Department of Housing and Community
Development; (3) a community development block grant (“CDBG grant”) in the amount of
$6,400.00; and (4) $100.00 in cash, paid out-of-pocket by the buyers.
5.

The Property was subject to certain use and resale restrictions for a period of 15

years, based on the amount of HOME funds used to develop the Property. The restrictions
were imposed by a Declaration of Restrictive Covenants (“Restrictive Covenants”) that was
signed by the City, BRHDC, and the Grants. The Grants executed the Restrictive Covenants
in the presence of a notary public on May 20, 2005. The Restrictive Covenants were recorded
in the Roanoke City Circuit Court Clerk’s Office that same day.
6.

The Restrictive Covenants provided that “[t]he terms and conditions herein

shall apply for a period of 15 years from the date this document is recorded (‘the period of
affordability’).” Restrictive Covenants 1, ECF No. 16-1. In accordance with regulations
3
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 3 of 16 Pageid#: 759

promulgated by HUD, the Restrictive Covenants specified that the Property could only be
conveyed to “a family having a gross family income not exceeding 80% of the area median,”
and that the family “shall use the Property as its principal residence.” Id; see also 24 C.F.R.
§ 92.254(a)(3) (“The housing must be acquired by a homebuyer whose family qualifies as a
low-income family, and the housing must be the principal residence of the family throughout
the [affordability period].”).
7.

The Restrictive Covenants also provided that the City “shall be notified of any

... impending resale” within the period of affordability. Restrictive Covenants 1. The
Restrictive Covenants further provided, in relevant part, as follows:
Any such sale or conveyance of the Property shall allow the
owner a fair return on investment. By this is meant that the
owner, after satisfying any outstanding loans on the Property
(including loans made with HOME funds), may recover the
amount of the owner’s down payment and closing costs and any
capital improvement investment. Thereafter, the City and the
homeowner shall share any remaining (net) proceeds from the
sale Or conveyance. The remaining proceeds shall be divided
proportionally as set forth in the following mathematical
formulas:
HOME investment
x Net proceeds-Amount to City
HOME investment +
homeowner investment
homeowner investment x Net proceeds=Amount to homeowner
HOME investment +
homeowner investment

Id
8.

City officials were not present for the closing on the sale of the Property. The

plaintiff had no discussions with City officials regarding the Property or the Restrictive
Covenants at that time.
4
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 4 of 16 Pageid#: 760

9.

The Grants moved into the Property in May of 2006, after the plaintiff

completed his military service. They continued to use the Property as their principal residence
until 2010, when they purchased a home in Hardy, Virginia. That same year, the Grants moved
to Hardy. They subsequently rented the Property to at least two individuals. The amount of
rent charged by the Grants was higher than their monthly mortgage payment on the Property.
10.

At some point in 2013, the Grants decided to sell the Property. The plaintiff met

with a listing agent, who advised him that the Property was still subject to the Restrictive
Covenants.
11.

The plaintiff obtained a copy of the Restrictive Covenants and then contacted

several attorneys. The attorneys indicated that it would be difficult to avoid the terms of the
Restrictive Covenants. After researching the matter on his own, the plaintiff came to believe
that certain provisions of the Restrictive Covenants were invalid.
12.

In late 2013, the plaintiff went to the City’s Department of Planning, Building &

Development to speak with someone about the Restrictive Covenants. He eventually met with
Crystal Hypes, who held the position of HUD Community Resources Program Specialist II.
Hypes was responsible for administering the grant funds obtained through the HOME
Program.
13.

During his meeting with Hypes, the plaintiff indicated that he and his wife had

listed the Property for sale and that a prospective buyer, Devin Brown, had made an offer to
purchase the Property. The plaintiff also indicated that he and his family were no longer living
there. The plaintiff presented Hypes with a copy of the Restrictive Covenants and inquired as
to how the provisions would affect the potential sale. Hypes advised the plaintiff that the
5

Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 5 of 16 Pageid#: 761

Property was still subject to the terms of the Restrictive Covenants since the 15-year
affordability period had not expired, and that the proceeds from any sale within that period
would be shared in accordance with the formulas set forth in the Restrictive Covenants.
14.

The plaintiff and Hypes discussed the fact that the resale provisions allowed for

owners of the Property to recover “any capital improvement investment.” The plaintiff told
Hypes that he had installed interior cabinets and was planning to build a shed on the Property.
Hypes advised the plaintiff that such additions would not qualify as capital improvements for
purposes of the Restrictive Covenants. Consequently, the plaintiff did not provide the City
with receipts for the cabinets or other improvements made to the Property.
15.

The plaintiff also learned that the City did not consider mortgage payments to

be part of the “homeowner investment” for purposes of the resale formulas. As a result, the
Grants would not recover any equity accumulated from making such payments if they sold the
Property prior to the expiration of the 15-year affordability period.
16.

Hypes emphasized to the plaintiff that the resale restrictions only applied for a

period of 15 years. Hypes recommended that the Grants move back into the Property and wait
until the affordability period expired before selling it, so that they would not have to share the
sales proceeds with the City.
17.

. The plaintiff also met with Keith Holland, the Community Resources Program

Administrator and Hypes’ supervisor. The plaintiff disputed what Hypes had told him about
the disbursement of the sales proceeds under the Restrictive Covenants. He and Holland
reviewed the terms of the Restrictive Covenants and went over how the sale proceeds would
be divided using the resale formulas. The plaintiff presented Holland with information from
6
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 6 of 16 Pageid#: 762

HUD and suggested that the Restrictive Covenants did not comply with the applicable
regulations. Holland advised the plaintiff that he would get back to him after having the
opportunity to review the matter. Holland ultimately determined that the resale provisions in
the Restrictive Covenants comported with the applicable regulatory requirements.
Accordingly, Holland affirmed the representations made by Hypes, and he communicated his
decision to the plaintiff.
18.

The plaintiff had no further communications with Hypes, Holland, or any other

City official regarding the Property. He did not ask to speak to Holland’s supervisor or the City
Manager. Instead, the plaintiff contacted HUD, and he was put in communication with
Rdnnie Legette, the Director of the Richmond Field Office.
19.

Based on his conversations with Hypes and Holland regarding the resale

provisions in the Restrictive Covenants, the plaintiff knew that the City would recover nearly
all of the net proceeds from the sale of the Property if he and his wife accepted the pending
offer. The plaintiff also understood that the City would not be entitled to any of the sale
proceeds if he and his wife waited until after the 15-year affordability period expired to sell the
Property. However, by that point, the Grants had already moved to Hardy with their two
children, and they did not want to be required to use the Property as their principal residence.
The Grants briefly considered what the plaintiff referred to as a “nuclear” option, under which
they would lower the price of the Property to the point that there were no remaining sales
proceeds to share with the City. The Grants ultimately declined to pursue that option,
however, since they believed that it would unfairly advantage the potential buyer. Instead, they
decided to accept the pending offer and proceed with sale of the Property.
7
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 7 of 16 Pageid#: 763

20.

In January of 2014, the Grants sold the Property to Devin Brown for

$106,000.00. Prior to the closing date, Hypes met with Brown and confirmed that he met the
eligibility requirements for participation in the HOME Program. Hypes advised Brown that
the terms of the Restrictive Covenants would continue to apply until the 15-year affordability
period expired. Hypes also spoke to the closing agent and explained how the sale proceeds
would be divided under the Restrictive Covenants.
21.

On the day of closing, Grant called Legette and asked if the net proceeds from

the sale of the Property could be placed in an escrow account until HUD had the opportunity
to review the Restrictive Covenants. Legette advised the plaintiff that he did not have authority
to grant such request.
22.

The sale was finalized on January 10, 2014. The sale proceeds were first used to

satisfy the balance of the Grants’ mortgage loan, to pay the closing costs for the sale of the
Property, and to reimburse die Grants for the portion of the initial down payment that they
personally made, which was believed at the time to be $669.20. The remaining proceeds in the
amount of $26,430.95 were divided with the City using the mathematical formulas in the
Restrictive Covenants. Application of the formulas resulted in the City receiving over 99% of
the remaining sale proceeds, specifically, $26,257.30, and the Grants receiving an additional
$173.65.
23.

The Grants initiated a complaint with HUD regarding the manner in which the

proceeds from the sale of the Property were divided. The Grants asserted that they did not
receive a fair return on their investment. On July 15, 2014, HUD sent Holland a letter in
response to the Grants’ complaint. Upon review of the matter, HUD “determined that the
8
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 8 of 16 Pageid#: 764

city’s resale policy for [the Grants’] purchase and subsequent resale of 607 Bullitt Avenue was
not in compliance with the HOME regulations in effect in 2005,” since the policy “did not
define and provide a fair return of the homeowner’s initial investment and any capital
improvements.” July 15,2014 Letter 2, ECF No. 19-1. HUD also determined that the City had
“improperly recaptured the state’s downpayment assistance of $2,200.” Id. HUD explained
that the $2,200 in HOME funds provided by the state should have been “considered to be a
portion of the [Grants’] investment because the corresponding period of affordability had
been satisfied.” IcL HUD ultimately concluded that the “effect” of the problem was that “the
Grant[s] did not receive a fair return on their investment pursuant to a regulatory compliant
resale policy” and “were not given consideration for the $2,200 in HOME funds provided by
the state of Virginia.” Id. 3. HUD directed the City to take several corrective actions, including
adopting a revised resale policy and recalculating the Grants’ resale transaction.
24.

The City objected to some of the corrective actions proposed by HUD, but

confirmed that the City would treat the $2,200.00 HOME grant from the state as part of the
homeowners’ investment and return that amount to the Grants. By letter dated June 9, 2015,
HUD maintained its finding against the City and rejected the City’s assertion that it had
“resolved” the matter “with the return of the $2,200 to the Grants.” June 9, 2015 Letter 2,
ECF No. 42-5. HUD noted that although the resale price of the Property was significantly
above the original purchase price, “the City recaptured equity the Grants earned by making
monthly payments on their first mortgage.” Id HUD ultimately required the City to either
repay $68,530.00 to its HOME account from non-federal funds or enter into a negotiated

9

Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 9 of 16 Pageid#: 765

settlement with the Grants for an amount to be approved by HUD. The City chose the former
course and transferred $68,530.00 from the City’s general fund to its HOME account.
25.

During the course of the litigation, the City conceded that the $2,200.00 HOME

grant from the state should have been credited to the Grants under the resale provisions of the
Restrictive Covenants. At trial, Holland confirmed that this error would be corrected. Holland
also acknowledged.that the Grants should have received credit for the CDBG grant in the
amount of $6,400.00, and that the CDBG funds would be placed on the Grants’ side of the
ledger. With respect to capital improvements, Holland admitted that the Grants were entitled
to reimbursement for any capital improvements made to the Property. However, the City
never received any receipts or other documentation from the Grants. As for HUD’s concern
that the City recaptured equity that the Grants earned by making their monthly mortgage
payments, Holland testified that the City did not ordinarily consider mortgage payments in
applying the resale formulas. To the extent that the Grants are entitled to additional credit for
their mortgage payments, Holland suggested that the amount of such additional credit should
be offset by the income that the Grants received from renting the Property in violation of the
Restrictive Covenants.
26.

The plaintiff did not submit any evidence at trial documenting improvements

made to the. Property. Three days after the bench trial, the plaintiff filed copies of receipts
from Home Depot, Lowe’s, Comfort Zone, and Woods Family Heating & Air Conditioning.
CONCLUSIONS OF LAW
The Fourteenth Amendment prohibits states and municipalities from “depriv[ing] any
person of life, liberty, or property without due process of law.” U.S. Const, amend. XIV. “Due
10
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 10 of 16 Pageid#: 766

process contains both substantive and procedural components.” Snider Int’l Corp. v. Town of
Forest Heights, 739 F.3d 140,146 (4th Cir. 2014). The sole remaining claim is asserted under
the procedural component of the Due Process Clause.
To establish a violation of procedural due process, the plaintiff “must show that (1) [he]
had property or a property interest (2) of which the defendant deprived [him] (3) without due
process of law.” Sunrise Corp. v. City of Myrtle Beach. 420 F.3d 322,328 (4th Cir. 2005) (citing
Sylvia Dev. Corp. v. Calvert Cntv.. 48 F.3d 810, 826 (4th Cir. 1995)). After carefully
considering the evidence adduced at trial, the court concludes that the plaintiff has not met his
burden of proving by a preponderance of the evidence that he was deprived of a property
interest without due process.
“At bottom, procedural due process requires fair notice of impending state action and
an opportunity to be heard.” Snider Int’l Corp.. 739 F.3d at 146. The notice and hearing
requirements are “distinct features of due process,” and thus governed by different standards.
Id. “Notice must be ‘reasonably calculated to convey information concerning a deprivation,’
while the hearing requirement is flexible, taking into account a ‘balancing of the private interest
and the public interest, along with the risk of an erroneous deprivation of such interest
through the procedures used, and the probable value if any, of additional or substitute
procedural safeguards.’” Applegate. LP v. City of Frederick. 179 F. Supp. 3d 522, 529 (D. Md.
2016) (quoting Snider Int’l Corp., 739 F.3d at 146): see also Mathews v. Eldridge. 424 U.S. 319,
335 (1976)). The Supreme Court “consistently has held that some kind of hearing is required at
some time before a person is finally deprived of his property interest.” Memphis Light Gas
and Water Div. v. Craft. 436 U.S. 1, 16 (1978) (internal quotation marks omitted). However,
11
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 11 of 16 Pageid#: 767

“the ‘hearing’ required by the Due Process Clause need not be an adversarial hearing, a full
evidentiary hearing, or a formal hearing.” D.B. v. Cardall. 826 F.3d 721, 743 (4th Cir. 2016)
(internal quotation marks omitted). Instead, “the opportunity for informal consultation with
designated personnel empowered to correct a mistaken determination constitutes a ‘due
process hearing’ in appropriate, circumstances.” Craft. 436 U.S. at 16 n.17 (1978): see also id.
(“[A] hearing in its very essence demands that he who is entitled to it shall have the right to
support his allegations by argument however brief, and, if need be, by proof, however
informal.”) (internal quotation marks omitted).
Applying these principles, the court concludes that the evidence fails to establish that
the plaintiff was deprived of a property interest without adequate notice or an opportunity to
be heard. Turning first to the issue of notice, it is undisputed that the Grants executed the
Restrictive Covenants in the presence of a notary public on May 20, 2005. Although the
Restrictive Covenants may not be free from all ambiguities, the provisions clearly put the
Grants on notice that the proceeds from any subsequent sale of the Property within the
15-year affordability period would be shared with the City. Moreover, prior to reselling the
Property, the plaintiff discussed the terms of the Restrictive Covenants with Hypes and
Holland, and received confirmation that the resale provisions would apply if he and his wife
chose to sell the Property at that time. In reviewing the resale provisions with Hypes and
Holland, the plaintiff was advised that expenditures for new cabinets and a storage shed would
not qualify as a “capital improvement investment” under the standard employed by the City,
and that the City did not consider mortgage payments to be part of the “homeowner
investment” for purposes of the resale provisions. Thus, the plaintiff knew from his
12
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 12 of 16 Pageid#: 768

discussions with the City employees that he and his wife would not recover any equity under
the City’s application of the resale formulas, if they proceeded with the proposed sale of the
Property. The plaintiff also knew that he and his wife would no longer be required to share any
of the sale proceeds with the City if they waited until after the 15-year period expired to sell the
Property. Despite having knowledge of the resale provisions, the City’s interpretation of those
provisions, and the manner in which the resale formulas would be applied, the Grants elected
to proceed with the sale of the Property to Brown. Based on the evidence presented, the
plaintiff is unable to prove that he was deprived of an interest in the Property without adequate
notice.
The court likewise concludes that the evidence fails to establish that the plaintiff did
not receive an adequate opportunity to be heard. Prior to selling the Property, the plaintiff
personally met with Hypes regarding the Restrictive Covenants and expressed his concerns
regarding the resale provisions. The plaintiff also received the opportunity to meet with
Holland and voice his objections to the Restrictive Covenants. After reviewing the matter,
Holland affirmed the representations made by Hypes. The plaintiff did not ask to speak to
Holland’s supervisor or the City Manager before selling the Property. See Code of the City of
Roanoke Ch. 2, Art. V, § 2-120 (“Except as otherwise specifically provided the city manager
shall exercise supervision and control over all city departments and divisions.”). Instead, the
plaintiff and his wife elected to proceed with the sale, despite knowing that they would only
receive a small share of the proceeds. Based on the evidence presented, the plaintiff is unable
to prove that he was deprived of an adequate opportunity to be heard under the circumstances
of this case.
13
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 13 of 16 Pageid#: 769

In arguing to the contrary at trial, the plaintiff repeatedly emphasized that the City was
not a “neutral” party to the discussions regarding the Restrictive Covenants and that its
application of the resale formulas was later found to be in error by HUD. As indicated above,
however, due process does not require a pre-deprivation hearing before a neutral party in every
case. See Craft 436 U.S. at 16, n. 17 (noting that the opportunity for informal consultation
with designated personnel satisfies the hearing requirement in appropriate circumstances); see
also Garraghtv v. Jordan. 830 F.2d 1295,1302 (4th Cir. 1987) (holding in the public
employment context that “[a] pre-deprivation proceeding need not be a full evidentiary
hearing with witnesses and a neutral decision maker so long as the employee is given an
opportunity to answer the charges”). Nor does the Fourteenth Amendment entide a
complaining party to “perfect” process. See Mackey v. Montrvm. 443 U.S. 1,13 (1979) (“The
Due Process Clause simply does not mandate that all governmental decisionmaking comply
with standards that assure perfect, error-free determinations.”). Instead, ‘“procedural due
process is simply a guarantee’ that there is notice and an opportunity to be heard.” Snider Int’l
Corp.T 739 F.3d at 149 (quoting Mora v. City of Gaithersburg. 519 F.3d 216, 230 (4th Cir.
2008)). Based on the evidence presented, the court concludes that the pre-deprivation process
afforded by the City met these minimal requirements.
Additionally, the plaintiff had post-deprivation procedures available to remedy any
perceived error in the application of the Restrictive Covenants. As the United States Court of
Appeals for the Fourth Circuit recently explained, “[a]nalyzing the adequacy of process a state
affords usually requires courts to ‘consult the entire panoply of predeprivation and
postdeprivation process provided by the state.’” Rockville Cars. LLC v. City of Rockville. 891
14
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 14 of 16 Pageid#: 770

F.3d 141,149. (4th Cir. 2018) (quoting Tri-Ctv. Paving. Inc, v. Ashe Ctv.. 281 F.3d 430, 436
(4th Cir. 2002)). ‘This is so because a due process violation ‘is not complete’ when the
deprivation occurs; rather it is only complete when the government ‘fails to provide due
process.’” Ashley v. NLRB, 255 F. App’x 708, 710 (4th Cir. 2007) (quoting Zinermnn v.
Burch, 494 U.S. 113,126 (1990)). In this case, the City agreed to return a portion of the sale
proceeds to the Grants after they complained to HUD. If the Grants believed that the
proposed adjustment would still not provide a fair return on their investment as required by
the Restrictive Covenants, they could have pursued an action for breach of contract in state
court. Sg_e, e.g., Riordan v. Hale, 212 S.E.2d 65, 67 (Va. 1975) (describing restrictive covenants,
as “contractual devices” that “must be strictly construed”). The plaintiff has provided no basis
upon which the court could conclude that such remedy would have been constitutionally
inadequate. See Rockville Cars. LLC. 891 F.3d at 149 (concluding that the plaintiffs failure to
pursue available state court remedies was fatal to its procedural due process claim); Martinez v.
City of Cleveland. 700 F. App’x 521, 523 (6th Cir. 2017) (finding no due process violation
where the plaintiff had “numerous state-law remedies available to him,” including “a breach of
contract suit”).
In sum, the court concludes that the plaintiff has not met his burden of proving by
preponderance of the evidence that he was deprived of a property interest without due
process. Accordingly, the court will grant judgment in favor of the City on the procedural
due process claim.*

* Because the plaintiff failed to establish a procedural due process violation, the court need not further address
the City’s argument that the evidence was insufficient to support a finding of municipal liability under Monell v.
Department of Social Services. 436 U.S. 658 (1978).

15
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 15 of 16 Pageid#: 771

Notwithstanding the court’s conclusion that the plaintiff has no viable claim for relief
under the Fourteenth Amendment, it is clear from the evidence that errors were made by the
City in applying the resale provisions of the Restrictive Covenants. Based on the City’s
representations at trial, it is the court’s understanding that the resale formulas will be
recalculated, and that the Grants will receive credit for the $2,200.00 HOME grant from the
state and the CDBG grant in the amount of $6,400.00. To the extent that the plaintiff believes
that he is also entitled to reimbursement for capital improvements made to the Property, the
plaintiff must submit the necessary documentation directly to the City for its review and
consideration. Finally, in light of the concern raised by HUD, the City should give appropriate
consideration in its revised calculations to crediting the Grants with their equity investment
resulting from their mortgage payments, offset by the rental income that the Grants earned in
violation of the Restrictive Covenants and the applicable federal regulations.
An appropriate Order will be entered.
. »r

Entered: 0 J* —

/i/

2-^V 1

■f,

Michael F. ffbanski
Chief
'ted States District Judge '

'

16
Case 7:16-cv-00007-MFU Document 62 Filed 03/19/19 Page 16 of 16 Pageid#: 772

T. COURT

Case 7:16-CV-00007-MFU Document 44 Filed 11/07/17 Page 1
FILED

NOV 0 7 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MARK T. GRANT,
Plaintiff,
V-

CITY OF ROANOKE,
Defendant.

)
)
)
)
)
)
)
)
)

Civil Action No. 7:16CV00007
ORDER
Hon. Glen E. Conrad
United States District Judge

For the reasons stated in the accompanying memorandum opinion, it is hereby
ORDERED
that the City’s supplemental motion for summary judgment on the plaintiffs due process claim is
GRANTED IN PART AND DENIED IN PART.
The Clerk is directed to send copies of this order and the accompanying memorandum
opinion to the plaintiff and all counsel of record.
DATED: This

day of November, 2017.

United States District Judge

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 1 of 12 Pageid#: 532
CLERK’S OFFICE U.S. DIST. COURT
AT ROANOKE, VA
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MARK T. GRANT,
Plaintiff,
v.

CITY OF ROANOKE,
Defendant.

)
)
)
)
)
)
)
)
)

NOV 0 7 2017
JUl
BY:

Di
IS

CLI

Civil Action No. 7:16CV00007
MEMORANDUM OPINION
Hon. Glen E. Conrad
United States District Judge

Mark T. Grant, proceeding pro se, filed this action against the City of Roanoke, alleging
that the City improperly retained $26,257.30 from the sale of certain real property. The City has
filed a supplemental motion for summary judgment on the plaintiffs due process claim. For the
reasons that follow, the motion will be granted in part and denied in part.
Background
The facts of this case are outlined in detail in the court’s July 18, 2017 memorandum
opinion. They are not repeated here except as necessary for resolution of the pending motion.
Where appropriate, this summary also includes additional facts cited in the parties’ supplemental
briefs.
The City participates in the HOME Investment Partnerships Program (“HOME”), a federal
grant program created pursuant to the Oranston-Gonzalez National Affordable Housing Act of
1990, as amended, 42 U.S.C, § 12701 et seq. The HOME Program provides funding to states and
localities to be used to increase the supply of affordable housing available for low-income
households. The program is administered by the United States Department of Housing and Urban
Development (“HUD”).

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 2 of 12 Pageid#: 533

In 2002, the City partnered with Blue Ridge Housing Development Corporation
(“BRHDC”) to develop and rehabilitate housing for sale to purchasers meeting HUD’s
low-income criteria. As is relevant in the instant case, BRHDC received HOME funds to
purchase and rehabilitate property located at 607 Bullitt Avenue in Roanoke, Virginia (“the
Property”).
The plaintiff and his wife, Lori M. Grant, were found to qualify for the HOME Program.
On May 20, 2005, they purchased the Property from BRHDC for the price of $85,000.00, plus
additional closing costs totaling $3,969.20. The funds used to purchase the Property were derived
from the following sources: (1) an $80,000.00 loan, secured by a first deed of trust on the Property,
from a private bank; (2) a $2,200.00 HOME grant, secured by a second deed of trust on the
property, from the Virginia Department of Housing and Community Development; (3) a
Community Development Block Grant in the amount of $6,400.00; and (4) $100.00 in cash, paid
out-of-pocket by the buyers.
Pursuant to the statutory and regulatory provisions governing the HOME Program, the City
was required to ensure the affordability of the Property for a period of fifteen years. It was also
required to impose resale or recapture provisions on the Property. Because BRHDC received
HOME funds to improve the Property and the plaintiff and Ms. Grant did not directly obtain any
HOME funds from the City, the City utilized the resale option.
The resale requirements were imposed on the Property pursuant to a Declaration of
Restrictive Covenants, dated April 29,2005, which was signed by the City, BRHDC, the plaintiff,
and Ms. Grant. See Declaration of Restrictive Covenants (“Restrictive Covenants”), Docket No.
16-4. The Restrictive Covenants contained terms and conditions that applied against the Property

2

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 3 of 12 Pageid#: 534

for a period of fifteen years, based on the amount of HOME funds invested in the Property. The
/

Restrictive Covenants provided that, within the fifteen-year affordability period, “any sale or
conveyance of the Property shall be only to a family having a gross family income not exceeding
80% of the area median, as established by HUD at the time of the transfer of the Property, and
which shall use the Property as its principal residence.” Restrictive Covenants 1. As is relevant
here, the Restrictive Covenants further provided as follows:
Any such sale or conveyance of the Property shall allow the owner a
fair return on investment. By this is meant that the owner, after
satisfying any outstanding loans on the Property (including loans
made with HOME funds), may recover the amount of the owner’s
down payment and closing costs and any capital improvement
investment. Thereafter, the City and the homeowner shall share
any remaining (net) proceeds from the sale or conveyance. The
remaining proceeds shall be divided proportionally as set forth in
the following mathematical formulas:
HOME investment
x Net Proceeds = Amount to City
HOME investment +
homeowner investment
homeowner investment x Net Proceeds = Amount to homeowner
HOME investment +
homeowner investment
Id.
The plaintiff notified the City in late 2013 that he would be selling the Property, and he
inquired about the existence of the Restrictive Covenants. The City informed the plaintiff that the
sale would be governed by the terms of the Restrictive Covenants and that the sales proceeds
would be shared pursuant to the resale formulas set forth therein.
In January of 2014, the plaintiff and Ms. Grant sold the Property to another individual for
the amount of $ 106,000.00. The sale triggered the resale provisions of the Restrictive Covenants.
According to the City, “[t]he sales proceeds were first applied to the outstanding loans against the

3 .

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 4 of 12 Pageid#: 535

Property, repayment of the [plaintiffs initial down payment, believed at the time to be $669.20,
and closing costs, leaving remaining net sales proceeds in the amount of $26,430.95.” 1st Aff. of
Crystal H. Hypes (“1st Hypes Aff.”) f 20, Docket No. 16-1 at 4. The manner in which the City
applied the resale formulas in the Restrictive Covenants resulted in the City receiving nearly all of
the remaining sales proceeds, specifically, $26,257.30, and the plaintiff and Ms. Grant receiving
an additional $173.65. Id. f 21.
The plaintiff and Ms. Grant disputed the maimer in which the remaining sales proceeds
were divided by the City. Although the timing of the conversation is unclear from the record, the
plaintiff initially spoke with Crystal Hypes, the City employee responsible for administering
HOME funds. According to the City, the plaintiff informed Hypes that the only investments he
had made in the Property were the purchase and installation of an outdoor storage shed and new
kitchen cabinets.1 Hypes allegedly advised the plaintiff that such expenditures are not considered
“eligible capital expenditures for purposes of. .. the calculation of the formula contained in the
Restrictive Covenants.” Hypes 2d Aff. If 10, Docket No. 40-1. When the plaintiff “appeared
disappointed with that information,” Hypes purportedly told him that he could “appeal” to her
direct supervisor, Keith Holland.2 Id. f 11.
At some point thereafter, the plaintiff and Ms. Grant complained to HUD.

HUD

investigated the complaint and determined that “[t]he city’s resale policy for [the Grants’]
The plaintiffs opposition briefs disputes this assertion and attaches exhibits which support his
contention.
2 The second affidavit signed by Hypes refers to conversations that she allegedly had with Holland and
Carmen Bucci, a HUD representative, regarding the types of home expenses that are typically considered in
calculating a homeowner’s “fair return on investment.” Hypes 2d Aff. If 11-12. The court agrees with the
plaintiff that Hypes’ accounts of the other individuals’ statements during the conversations are arguably hearsay.
In any event, the challenged statements are not probative of the primary issue at hand, namely whether the
plaintiff received constitutionally adequate notice and an opportunity to be heard prior to the deprivation of a
protected property interest.
4
v

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 5 of 12 Pageid#: 536

purchase and subsequent resale of 607 Bullitt Avenue was not in compliance with the HOME
regulations in effect in 2005,” since the policy “did not define and provide a fair return of the
: homeowner’s initial investment and any capital improvements.” My 15, 2014 HUD Letter 2,
Docket No. 19-1. HUD emphasized that “[w]hile fair return on investment is defined by the
participating jurisdiction, the HOME regulations require that the City ensure that the definition is
both clear and objective, so the original HOME-assisted homebuyer understands how his or her
investment and any return on that investment would be determined at the time of resale.” June 9,
2015 HUD Letter 1-2, Docket No. 42-5. HUD also noted that although the resale price of the
Property was significantly above the original purchase price, “the City recaptured equity the
Grants earned by making monthly payments on their first mortgage.” Id, HUD ultimately
concluded that the “effect” of the City’s actions was that “the Grant[s] did not receive a fair return
on their investment pursuant to a regulatory compliant resale policy[.]” July 15, 2014 HUD
Letter 3. HUD required the City to either return $68,530.00 in HOME funds or settle with the
Grants for an amount to be approved by HUD. The City chose the former course and transferred
$65,530.00 from the City’s general fund to its HOME Investment Trust Fund.
On January 11, 2016, the plaintiff filed the instant action against the City, seeking to
recover the funds retained by the City from the sale of the Property. In his original complaint, the
plaintiff asserted that the City’s actions violated the federal regulations governing the HOME
Program and his right to due process under the Fourteenth Amendment. See Compl.

10, 12,

Docket No. 1.
On November 4, 2016, the City moved for summary judgment. The City argued that its
HOME resale policy complied with the HOME regulations in existence at the time the plaintiff and

5

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 6 of 12 Pageid#: 537

Ms. Grant purchased the property. The City did not specifically address the plaintiffs due
process claim.
On July 18, 2017, following a hearing on the motion for summary judgment, the motion
was granted in part and denied in part. The court concluded that the plaintiff did not have a viable
claim for damages under the HOME statute itself, or 42 U.S.C. § 1983, for alleged violations of the
statute and its implementing regulations. Accordingly, to the extent the City moved for summary
judgment on such claims, the motion was granted. However, the plaintiff also claimed that he
was denied due process as required by the Fourteenth Amendment. Because the City did not
specifically address that claim in its motion for summary judgment, the court declined to consider
the arguments made by the City for the first time during oral argument. Instead, the court
permitted the City to file a supplemental motion for summary judgment on the due process claim.
On August 8, 2017, the City filed a supplemental motion for summary judgment, along
with a second affidavit from Crystal Hypes. In the second affidavit, Hypes maintains that
“[ljocalities have the flexibility to determine what types of capital improvements [they] will
include in the basis for calculating an owner’s fair return on [his] investment.” Hypes 2d Aff. *f[ 5.
Hypes indicates arid that “it is the City’s policy that only expenditures for improvements that
increase the fair market value of HUD HOME assisted real estate are considered capital
expenditures that may be included in the basis for calculating an owner’s fair return on [his]
investment, if any real estate purchased or improved with the HUD HOME assistance funds is sold
prior to the expiration of the Affordability Period.” Id. ^ 6. Hypes also indicates that it is “the
City’s position” that mortgage payments made by a homeowner “are riot considered as
investments in calculating his fair return on investment.” IdL 13. According to Hypes, the City

6

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 7 of 12 Pageid#: 538

believes that “such an approach ignores market realities, and would improperly shift the burden of
any loss of equity by the owner onto the City.” Id.
The plaintiff has filed a brief in opposition to the supplemental motion for summary
judgment, along with additional exhibits. The motion is now ripe for review.
Standard of Review
An award of summary judgment is appropriate “if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). A dispute is genuine if a reasonable finder of fact could return a verdict for
the nonmoving party. Libertarian Party of Va. v. Judd. 718 F.3d 308, 313 (4th Cir. 2013). “A
fact is material if it might affect the outcome of the suit under the governing law.” Id. (internal
citations and quotation marks omitted). In deciding whether to grant a summary judgment
motion, the court must view the record in the light most favorable to the nonmoving party and
draw all reasonable inferences in his favor. Anderson v. Liberty Lobby, Inc.. 477 U.S. 242, 255
. (1986). The court “cannot weigh the evidence or make credibility determinations.” Jacobs v.
N.C. Admin. Office of the Courts. 780 F.3d 562, 568 (4th Cir. 2015).
Discussion
The Fourteenth Amendment to the United States Constitution protects citizens from being
deprived of property without due process. U.S. Const, amend. XIV, § 1. Due process contains
both procedural and substantive components. Snider Int’l Corp. v. Town of Forest Heights. 739
F.3d 140, 145 (4th Cir. 2014). “Procedural due process prevents mistaken or unjust deprivation,
while substantive due process prohibits certain actions regardless of procedural fairness.” Id.
(citations omitted). The City has construed the plaintiffs complaint as asserting violations of

7

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 8 of 12 Pageid#: 539

both procedural and substantive due process.

Accordingly, the court will examine each

component in turn.
I.

Procedural Due Process

To establish a violation of procedural due process, the plaintiff “must show that (1) [he]
had property or a property interest (2) of which the defendant deprived [him] (3) without due
process of law.” Sunrise Corn, v. City of Myrtle Beach. 420 F.3d 322,328 (4th Cir. 2005) (citing
Sylvia Dev. Corn, v. Calvert Cntv.. 48 F.3d 810, 826 (4th Cir. 1995)). In moving for summary
judgment, the City acknowledges that the plaintiff had a constitutionally protected interest in the
Property entitling him to due process. See Def.’s 2d Supp’l Br. 6, Docket No. 40 (“[I]t is
undisputed that Plaintiff had an interest in the Property, and that the City retained a portion of the
sales proceeds from the sale of the Property[.]”). The City instead argues that it is clear from the
record that the plaintiff received all of the process he was due.3 For the following reasons,
however, the court is unable to agree.
“At bottom, procedural due process requires fair notice of impending state action and an
opportunity to be heard.” Snider Int’l Corp.. 739 F.3d at 146 (citing Mathews v. Eldridge. 424
U.S. 319,333 (1976); Mullane v. Cent. Hanover Bank & Trust Co.. 339 U.S. 306,314-15 (1950));
see also United States v. James Daniel Good Real Pron.. 510 U.S. 43,48 (1993) (“Our precedents
establish the general rule that individuals must receive notice and an opportunity to be heard before
the Government deprives them of property.”). The notice and hearing requirements are “distinct
features of due process, and are thus governed by different standards.” Id. (citation omitted).
Proper notice, in particular, is an “‘elementary and fundamental requirement of due process,’ and
must be reasonably calculated to convey information concerning a deprivation.” Id. (quoting
3 The City does not otherwise challenge whether the plaintiff is able to satisfy the requirements for
municipal liability under 42 U.S.C. § 1983.

8

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 9 of 12 Pageid#: 540

Mullane. 339 U.S. at 314).

More specifically, “[d]ue process requires notice ‘reasonably

calculated, under all the circumstances, to apprise interested parties of the pendency of the action
and afford them an opportunity to present their objections.’” United Student Aid Funds. Inc, v.
Espinosa. 559 U.S. 260, 272 (2010) (quoting Mullane. 339 U.S. at 314). “Adequate notice is
integral to the due process right to a fair hearing, for the ‘right to be heard has little reality or worth
unless one is informed.”’ Bliekv. Palmer. 102 F.3d 1472,1475 (8th Cir. 1997) (quoting Mullane!
339 U.S. at 314); see also Cosby v. Ward. 843 F.2d 967 (7th Cir. 1988) (“It is universally agreed
that adequate notice lies at the heart of due process. Unless a person is adequately informed of the
reasons for denial of a legal interest, a hearing serves no purpose . . . .”) (internal citation and
quotation marks omitted).
Applying these principles, the court concludes that the City is not entitled to summary
judgment on the plaintiffs procedural due process claim. The evidence in the record, when
viewed in the plaintiffs favor, raises genuine issues of material fact as to whether the plaintiff was
deprived of an interest in the Property without adequate notice and a meaningful opportunity to be
heard.
For its part, the City seems to suggest that the Restrictive Covenants signed by the plaintiff
provided adequate notice of how the sales proceeds would be disbursed if he Sold the Property
prior to the expiration of the affordability period. See Def.’s 2d Supp’l Br. 6 (emphasizing that
“the portion of the sales proceeds from Plaintiffs sale of the Property retained by the City was in
accordance with the terms of the Resale Formula contained in the Restrictive Covenants”). The
problem with this argument is that the Restrictive Covenants did not reference or explain either of
the resale policies described in Hypes’ second affidavit. For instance, Hypes indicates that it is
the City’s policy to only consider certain types of capital improvements made by a homeowner in

9

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 10 of 12 Pageid#: 541

calculating a fair return on the homeowner’s investment, namely those that the City determines
add value to property.

However, this policy was not expressly stated in the Restrictive

Covenants. The Restrictive Covenants did not limit or delineate the types of improvements that
would be considered eligible capital improvements, or explain how capital improvements would
be valued by the City. Instead, the Restrictive Covenants indicated that the owner “may recover
. . . any capital improvement investment.”

Restrictive Covenants 1 (emphasis added).

Accordingly, a reasonable factfinder could conclude that the Restrictive Covenants did not provide
adequate notice of the City’s policy on capital improvements.
Along the same lines, a reasonable factfinder could conclude that the Restrictive
Covenants did not provide adequate notice of the effect that the resale provisions would have on
the plaintiffs ability' to build equity in the Property by making monthly mortgage payments.
Hypes’ second affidavit indicates that the City takes the position that mortgage payments toward
the principal balance on a loan are not considered part of the “homeowner investment,” for
purposes of the resale formula set forth in the Restrictive Covenants. Once again, however, this
particular policy was not mentioned in the Restrictive Covenants, and there is no evidence that it
was relayed to the plaintiff at any other time. Consequently, a reasonable factfinder could
conclude that the plaintiff was not provided sufficient notice of the potential deprivation of an
equity interest in the Property.
To the extent the City alternatively argues that the plaintiff s verbal communications with
Hypes provided sufficient notice to satisfy due process, the court is unable to agree. Viewing the
record in the light most favorable to the plaintiff, a reasonable factfinder could conclude that their
conversation did not provide adequate notice of the City’s resale policies or the effect that such
policies would have on the plaintiffs interest in the Property.

10

Additionally, while Hypes

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 11 of 12 Pageid#: 542

purportedly told the plaintiff that he could “appeal” to her direct supervisor, the record is devoid of
any evidence regarding the nature or extent of the City’s appeal process. Accordingly, the court is
unable to determine whether the plaintiff was adequately informed of the procedures available for
protesting the actions at issue, or whether such procedures were sufficient to protect the plaintiff’s
procedural due process rights.
In sum, genuine issues of material fact remain as to whether the plaintiff received adequate
notice and a meaningful opportunity to be heard. Accordingly, the City is not entitled to summary
judgment on the procedural due process claim.
II.

Substantive Due Process

The City also construed the plaintiffs complaint as asserting a substantive due process
claim.

The government violates substantive due process only when its actions shock the

conscience. Ctv. of Sacramento v. Lewis. 523 U.S. 833, 846-47 (1998); Young v. City of Mount
Ranier. 238 F.3d 567, 574 (4th Cir. 2001). The United States Court of Appeals for the Fourth
Circuit has emphasized that the protections of substantive due process extend only to “state action
so arbitrary and irrational, so unjustified by any circumstance or governmental interest, as to be
literally incapable of avoidance by any pre-deprivation procedural protections or of adequate
rectification by any post-deprivation state remedies.” Rucker v. Hartford Ctv.. 946 F.2d 278,281
(4th Cir. 1991) (citing Daniels v. Williams. 474 U.S. 327,331 (1986)). To shock the conscience,
the government’s conduct “must be ‘intended to injure in some way unjustifiable by any
government interest.’” Hawkins v. Freeman. 195 F.3d 732, 742 (4th Cir. 1999) (quoting Lewis.
523 U.S. at 849) (emphasis omitted).
To the extent the plaintiffs complaint could be construed to assert a violation of his
substantive due process rights, the court concludes that the City is entitled to summary judgment.

11

Case 7:16-cv-00007-MFU Document 43 Filed 11/07/17 Page 12 of 12 Pageid#: 543

In short, the record does not contain any evidence from which a reasonable factfinder could
conclude that the City engaged in conscience-shocking conduct. The-manner in which the City
retained the proceeds from the sale of the Property was simply not so egregious and unjust that no
amount of fair procedure could rectify it. Accordingly, the City’s motion for summary judgment
on any alleged violation of substantive due process will be granted.
Conclusion
;

For the reasons stated, the supplemental motion for summary judgment filed by the City
will be granted in part and denied in part.

The Clerk is directed to send copies of this

memorandum opinion and the accompanying order to the plaintiff and all counsel of record.
DATED: This

day of November, 2017.

United States District Judge

12

"; '.

Case 7:16-cv-00007-MFU Document 39 Filed 07/18/17 Page 1 of 1 Pageid#: 438
CLERK’S OFFICE U.8. DIST. COUW
AT ROANOKE, VA
FILED

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
MARK T. GRANT,
Plaintiff,
v.
CITY OF ROANOKE,
Defendant.

JUL 1 8 2017
jyUA-Si DUDLEY, clerk
BY:
LEI

)
)

)

Civil Action No. 7:16CV00007

)
)
)
)
)
)

ORDER
Hon. Glen E. Conrad
United States District Judge

For the reasons stated in the accompanying memorandum opinion, it is hereby
ORDERED
as follows:
1.

The plaintiffs motions to supplement his complaint (Docket Nos. 24 & 30) are
GRANTED;

2.

The defendant’s motions for summary judgment (Docket Nos. 15 & 31) are
GRANTED IN PART AND DENIED IN PART; and

3.

The City is directed to file any supplemental motion for summary judgment on the
plaintiffs due process claim within twenty-one (21) days of the date of entry of this
order and the accompanying memorandum opinion. The plaintiff shall have
twenty-one (21) days thereafter in which to file a response.

The Clerk is directed to send copies of this order and the accompanying memorandum
opinion to the plaintiff and all counsel of record.
DATED: This Jj^day of-July, 2017.

Chief United States District Judge

- i

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page lot 26 Pageid#: 412

eieRweewgg u.a. bibt, ©qurt
: AT ROAN OKI, VA
PLBP

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION

JUL 1« 2017
juujjrraDuc
BY:

CLERK
CLEI

MARK T. GRANT,
Plaintiff,
v.
CITY OF ROANOKE,
Defendant.

)
)
)
)
)
)
)
)
)

Civil Action No. 7:16CV00007
MEMORANDUM OPINION
Hon. Glen E. Conrad
United States District Judge

Mark T. Grant, proceeding pro se, filed this action against the City of Roanoke (the
“City”), alleging that the City improperly retained $26,257.30 from the sale of certain real
property, which was previously rehabilitated for occupancy, using funds made available to the
City through the federal HOME Investment Partnerships Program (“HOME Program”). Grant
claims that the City violated regulations implementing the HOME Investment Partnerships Act
and his constitutional right to due process, and that he is entitled to relief under 42 U.S.C. § 1983.
The case is presently before the court on the City’s motions for summary judgment. For the
reasons that follow, the motions will be granted in part and denied in part.
Statutory and Regulatory Background
Before delving into the factual background of this dispute, the court will summarize the
statutory and regulatory context in which the facts developed.
The HOME Program is a federal block grant program created pursuant to the
Cranston-Gonzalez National Affordable Housing Act of 1990 (“NAHA”), as amended, 42 U.S.C.
§ 12701 et seq. One of the stated purposes of the NAHA is “to extend and strengthen partnerships
among all levels of government and the private sector, including for-profit and nonprofit

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 2 of 26 Pageid#: 413

organizations, in the production and operation of housing affordable to low-income and
moderate-income families.” Id. § 12703(3).
Subtitle A of Title II of the NAHA, also known as the HOME Investment Partnerships Act
(“HOME Act”), authorizes the Secretary of the United States Department of Housing and Urban
Development (“HUD”) “to make funds available to participating jurisdictions for investment to
increase the number of families served with decent, safe, sanitary, and affordable housing and
expand the long-term supply of affordable housing in accordance with provisions of this part.”
Id. § 12741. The HOME Act directs the Secretary to establish by regulation certain procedures
with which states and municipalities must comply in order to be designated as participating
jurisdictions and receive their own allocations of HOME funds. See id. § 12746. The Secretary
is further directed to establish a HOME Investment Trust Fund for each participating jurisdiction,
along with a line of credit that includes the participating jurisdiction’s allocated HOME funds.
See id. § 12748.
The HOME Act invokes Congress’s authority under the Spending Clause to place
conditions on the receipt of federal funds allocated by the Secretary.1 Section 212 of the HOME
Act, titled “Eligible uses of investment,” describes the types of activities for which HOME funds
may be used by participating jurisdictions, each of which relates to increasing the supply of
affordable housing.2 See id. § 12742(a)-(c). The statute provides in relevant part as follows:

1 The Spending Clause of the Constitution of the United States empowers Congress “[t]o lay and collect
Taxes, Duties, Imposts and Excises, to pay the Debts and provide for the common Defence and general Welfare
of the United States.” U.S. Const., art. I, § 8, cl. 1. “The Clause provides Congress broad discretion to tax and
spend for the ‘general Welfare,’ including by funding particular state or private programs or activities.”
Aeencv for Int’l Dev, v. All, for Open Soc’v Int’l. Inc.. 570 U.S.__ ,__ , 133 S. Ct. 2321, 2327-28 (2013).
Incident to this power, Congress may “impose limits on the use of such funds to ensure they are used in the
133 S. Ct. at 2328.
manner Congress intends.” Id at
2 Section 212 also lists a number of activities for which the use of HOME funds is expressly prohibited,
none of which are at issue in this action. See 42 U.S.C. § 12742(d).
2

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 3 of 26 Pageid#: 414

Funds made available under this part may be used by participating
jurisdictions to provide incentives to develop and support affordable
rental housing and homeownership affordability through the
acquisition, new construction, reconstruction, or moderate or
substantial rehabilitation of affordable housing, including real
property acquisition, site improvement, conversion, demolition, and
other expenses, including financing costs, relocation expenses of
any displaced persons, families, businesses, or organizations, to
provide for the payment of reasonable administrative arid planning
costs, to provide for the payment of operating expenses of
community housing development organizations, and to provide
tenant-based rental assistance.
Id. § 12742(a)(1). The statute further provides that a participating jurisdiction “shall give
preference to rehabilitation of substandard housing,” unless it determines that “such rehabilitation
is not the most cost effective way to meet the jurisdiction’s need to expand the supply of affordable
housing” and “the jurisdiction’s housing needs cannot be met through rehabilitation of the
available stock.” Id. § 12742(a)(2).
The HOME Act requires participating jurisdictions to match a certain percentage of the
HOME funds that they spend in a fiscal year with their own contributions to housing that qualifies
as affordable housing under the Act. See id. § 12750(a). The Act further provides that “[ejach
participating jurisdiction shall make all reasonable efforts ... to maximize participation by the
private sector, including nonprofit organizations and for-profit entities, in the implementation of
the jurisdiction’s housing strategy, including participation in the financing, development,
rehabilitation and management of affordable housing.” Id § 12751.
Section 215 of the HOME Act establishes specific requirements that housing for
homeownership must meet in order to qualify as “affordable housing” for purposes of the Act.
See id. § 12745(b). The statutory requirements are as follows:

3

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 4 of 26 Pageid#: 415

Housing that is for homeownership shall qualify as affordable
housing under this subchapter only if the housing—
(1) has an initial purchase price that does not exceed 95 percent
of the median purchase price for the area, as determined by the
Secretary with such adjustments for differences in structure,
including whether the housing is single-family or multifamily, and
for new and old housing as the Secretary determines to be
appropriate;
(2) is the principal residence of an owner whose family qualifies
as a low-income family—
(A) in the case of a contract to purchase existing housing, at
the time of purchase;
(B) in the case of a lease-purchase agreement for existing
housing or for housing to be constructed, at the time the agreement
is signed; or
(C) in the case of a contract to purchase housing to be
constructed, at the time the contract is signed;
(3) is subject to resale restrictions that are established by the
participating jurisdiction and determined by the Secretary to be
appropriate to—
(A) allow for subsequent purchase of the property only by
persons who meet the qualifications specified under paragraph (2),
at a price which will—
(i) provide the owner with a fair return on investment,
including any improvements, and
(ii) ensure that the housing will remain affordable to a
reasonable range of low-income homebuyers; or
(B) recapture the investment provided under this subchapter
in order to assist other persons in accordance with the requirements
of this subchapter, except where there are no net proceeds or where
the net proceeds are insufficient to repay the fiill amount of the
assistance; and
(4) if newly constructed, meets the energy efficiency standards
promulgated by the Secretary in accordance with section 12709 of
this title.
Id.
If a participating jurisdiction is found to have “failed to comply substantially with any
provision” of the HOME Act, the Secretary of HUD is directed to take certain corrective measures.
See id. § 12753. Specifically, the Secretary “shall reduce the line of credit in the participating
jurisdiction’s HOME Investment Trust Fund by the amount of any expenditures that were not in

4

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 5 of 26 Pageid#: 416

accordance with the requirements of [the Act].”

Id.

The Secretary may also prevent

withdrawals from the participating jurisdiction’s HOME Investment Trust Fund, restrict the
participating jurisdiction’s activities under the HOME Act, or preclude the participating
jurisdiction from receiving allocations of funds made available under the Act. Id
HUD has promulgated regulations implementing the HOME Program. See 24 C.F.R. §
92.254. Pursuant to the regulations, housing that is for acquisition by a family must meet certain
“affordability requirements.” Id. § 92.254(a). In particular, the housing must be single-family,
modest housing; it must be acquired by a low-income family and used as the family’s principal
residence; and it must meet the affordability requirements for a specific period as determined by
the amount of assistance provided. See |d. § 92.254(a)(l)-(4). For example, HOME assistance
over the amount of $40,000 triggers a minimum affordability period of fifteen years. See id §
92.254(a)(4).
Additionally, to ensure affordability, a participating jurisdiction is required to establish
either “resale” or “recapture” requirements that comply with the regulatory standards established
by HUD. Id. § 92.254(a)(5). The resale or recapture requirements must be included in the
consolidated plan that the participating jurisdiction submits to HUD for approval, and HUD must
determine that they are appropriate. ]d During the relevant time period, the regulation included
the following provisions applicable to resale and recapture requirements:
(i) Resale, Resale requirements must ensure, if the housing
does not continue to be principal residence of the family for the
duration of the period of affordability, that the housing is made
available for subsequent purchase only to a buyer whose family
qualifies as a low-income family and will use the property as its
principal residence. The resale requirements must also ensure that
the price at resale provides the original HOME-assisted owner a fair
return on investment (including the homeowner’s investment and
any capital improvement) and ensure that the housing will remain
affordable to a reasonable range of low-income homebuyers. The
5

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 6 of 26 Pageid#: 417

period of affordability is based on the total amount of HOME funds
invested in the housing.
(A) Except as provided . . . , deed restrictions, covenants
running with the land, or other similar mechanisms must be used
as the mechanism to impose the resale requirements....
(ii) Recapture. Recapture provisions must ensure that the
participating jurisdiction recoups all or a portion of the HOME
assistance to the homebuyers, if the housing does not continue to be
the principal residence of the family for the duration of the period of
affordability.
(A) The following options for recapture requirements are
acceptable to HUD....
(3) Shared net proceeds. If the net proceeds are not
sufficient to recapture the full HOME investment. . . plus
enable the homeowner to recover the amount of the
homeowner’s downpayment and any capital improvement
investment made by the owner since purchase, the
participating jurisdiction may share the net proceeds. The
net proceeds are the sales price minus loan repayment (other
than HOME funds) and closing costs. The net proceeds
may be divided proportionally as set forth in the following
mathematical formulas:
HOME investment
x Net proceeds = HOME amount to
HOME investment +
to be recaptured
homeowner investment
homeowner investment x Net proceeds = amount to
HOME investment +
homeowner
homeowner investment
Id § 92.254(a)(5)(i)-(ii) (2005).
The HOME Act’s implementing regulations also provide for performance reviews and
sanctions by HUD. See 24 C.F.R. §§ 92.550-92.552. Pursuant to § 92.550, HUD must review
the performance of each participating jurisdiction in carrying out its statutory and regulatory
responsibilities “whenever determined necessary by HUD, but at least annually.” Id § 92-550(a).
In conducting performance reviews, HUD may consider relevant information gained from a
number of sources, including citizen comments and complaints. Id Section 92.551 sets forth
the procedures HUD must use in conducting performance reviews and in taking corrective and
6

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 7 of 26 Pageid#: 418-

remedial actions.

The regulation provides that “ [corrective or remedial actions for a

performance deficiency (failure to meet a provision of this part) will be designed to prevent a
continuation of the deficiency; mitigate, to the extent possible, its adverse effects or consequences;
and prevent its recurrence.” Id § 92.551(c). The types of corrective and remedial actions that
HUD may take against participating jurisdictions are set forth in sections 92.551 and 92.552.
They include requiring a participating jurisdiction to “[r]eimburs[e] its HOME Investment Trust
Fund in any amount not used in accordance with the requirements of this part.” Id. § 92.551(c).
Factual Background and Procedural History
The City has administered and implemented its HOME Investment Partnership Program
since 1994. Aff. of Crystal H. Hypes (“Hypes Aff.”) U 4, Docket No. 16-1 at 1. In or around
2000, “the City was awarded certain HOME funds ... by HUD for the purpose of... partner[ing]
with a private entity... [to] mak[e] affordable housing available to low income families.” Id 5.
The City ultimately partnered with Blue Ridge Housing Development Corporation (“BRHDC”), a
nonprofit housing agency.3 Id. ^ 6. By agreement dated July 1,2002, the City made available to
BRHDC certain HOME funds to develop and rehabilitate housing for sale to low income
purchasers meeting HUD’s low-income criteria. Id As is relevant in the instant case, BRHDC
received $101,119.05 to purchase and rehabilitate certain real property located at 607 Bullitt
Avenue in Roanoke, Virginia (“the Property”). Id. f 8.
The plaintiff and his wife, Lori M. Grant, were found to qualify for the City’s HOME
Program. Id. If 9. On May 20, 2005, they purchased the Property from BRHDC for the price of
$85,000.00, plus additional closing costs totaling $3,969.20. See HUD-1 Settlement Statement,

3 BRHDC ceased operations sometime prior to 2013. See Hypes Aff. f 7.
7

••

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 8 of 26 Pageid#: 419

Docket No. 16-1 at 7. The funds used to purchase the Property were derived from the following
sources: (1) an $80,000.00 loan, secured by a first deed of trust on the Property, from a private
bank; (2) a $2,200.00 HOME grant, secured by a second deed of trust on the property, from the
Virginia Department of Housing and Community Development (“VDHCD”); (3) a Community
Development Block (“CDBG”) grant in the amount of $6,400.00; and (4) $100.00 in cash, paid
out-of-pocket by the buyers. See id; see also Hypes Aff. f 10.
Pursuant to the statutory and regulatory scheme discussed above, the City was required to
ensure the affordability of the Property for a period of fifteen years. See Hypes Aff. f 17. It was
also required to impose resale or recapture requirements on the Property. See id.

12. Because

BRHDC received the HOME assistance to improve the Property and the plaintiff and Ms. Grant
did not directly obtain any HOME funds from the City, the City utilized the resale option. See Id
f 15.
The resale requirements were imposed on the Property pursuant to a Declaration of
Restrictive Covenants, dated April 29,2005, which was signed by the City, BHRDC, the plaintiff,
and Ms. Grant. See Declaration of Restrictive Covenants (“Restrictive Covenants”), Docket No.
16-4 at 1. The Restrictive Covenants contained terms and conditions that applied against the
Property for a period of fifteen years, based on the amount of HOME funds invested in the
Property. The Restrictive Covenants provided that, within the fifteen-year affordability period,
“any sale or conveyance of the Property shall be only to a family having a gross family income not
exceeding 80% of the area median, as established by HUD at the time of the transfer of the
Property, and which shall use the Property as its principal residence.” Id The Restrictive
Covenants further provided that “[a]ny such sale or conveyance of the Property shall allow the
owner a fair return on investment,” which was defined as follows:

8

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 9 of 26 Pageid#: 420

By this is meant that the owner, after satisfying any outstanding
loans on the Property (including loans made with HOME funds),
may recover the amount of the owner’s down payment and closing
costs and any capital improvement investment. Thereafter, the
City and the homeowner shall share any remaining (net) proceeds
from the sale or conveyance. The remaining proceeds shall be
divided proportionally as set forth in the following mathematical
formulas: .
x Net proceeds = Amount to City
HOME, investment
HOME investment +
homeowner investment
homeowner investment x Net proceeds = Amount to homeowner
HOME investment +
homeowner investment
Id.
The plaintiff informed the City in late 2013 that he would be selling the Property prior to
the end of the fifteen-year affordability period, and he inquired about the existence of the
Restrictive Covenants. See Hypes Aff. f 19. The City informed the plaintiff that the proposed
sale would be subject to the terms of the Restrictive Covenants and that any remaining proceeds
from the sale would be shared between the City and the plaintiff pursuant to the resale formula set
forth therein. Id.
In January of 2014, the plaintiff and Ms. Grant sold the Property to Devin Brown for the
i

amount of $106,000.00. Ifr

20. This sale triggered the resale provisions of the Restrictive

Covenants. “The sales proceeds were first applied to the outstanding loans against the Property,
repayment of [pjlaintiff s initial down payment, believed at the time to be $669.20 [rather than
$100.00], and closing costs, leaving remaining net sales proceeds in the amount of $26,430.95.”
Id. Application of the resale formula in the Restrictive Covenants resulted in the City receiving
$26,257.30, and the plaintiff and Ms. Grant receiving an additional $ 173.65. Id. If 21.

9

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 10 of 26 Pageid#: 421

The plaintiff and Ms. Grant disputed the manner in which the remaining sales proceeds
were divided and ultimately complained to HUD. Id. ^[ 22. On July 15,2014, HUD sent the City
a letter in response to the Grants’ complaint.

Idi According to the letter, the “Grants’]

complaint asserted that they did not receive a fair return of their investment pursuant to the sale of
their property.” Letter from HUD (“HUD Letter”) 1, July 15, 2014, Docket No. 19-1. Upon
review of the matter, HUD “determined that the city’s resale policy for Mark T. and Lori M.
Grant’s purchase and subsequent resale of 607 Bullitt Avenue was not in compliance with the
HOME regulations in effect in 2005.” Icl at 2. The letter included the specific “finding” that
“[t]he city’s HOME resale policy was not in compliance with the regulation at 24 CFR [§]
92.254,” since the policy “did not define and provide a fair return of the homeowner’s initial
investment and any capital improvements” and “relied on the recapture formula as its resale
formula.” Id. HUD explained that the recapture formula was “unique to the recapture option”
and that “[t]he resale requirements require a different methodology.” Id HUD also indicated
that the City had “improperly recaptured the state’s downpayment assistance of $2,200.” Id.
HUD explained that the $2,200 in HOME funds provided by the state should have been
“considered to be a portion of the [Grants’] investment because the corresponding period of
affordability had been satisfied.” Id. HUD ultimately concluded that the “effect” of the problem
was that “the Grantfs] did not receive a fair return on their investment pursuant to a regulatory
compliant resale policy” and “were not given consideration for the $2,200 in HOME funds
provided by the state of Virginia.” Id. at 3.
In the letter, HUD proposed the following corrective actions:
Within 45 days from the date of this letter the city must retroactively
adopt a revised resale policy that determines the original
homebuyer’s fair return on investment based on an objective
standard or index that is publicly accessible and can be easily
10

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 11 of 26 Pageid#: 422

measured at the time of original purchase and at resale. The resale
policy must also outline how it will value capital improvements, and
include a comprehensive description of what will constitute a
capital improvement for purposes of determining [a] fair return.
The value of a capital improvement cannot be based on an appraisal.
The resale provisions must be recorded and the provisions must be
in the HOME agreement. The policy must outline how the city will
control and determine the sale price for subsequent buyers.
The proposed policy must be submitted to this office for review and
final approval. Once approved, this policy will be applied to all
homebuyer cases under the old policy upon resale unless the
controlling period of affordability has expired.
The city must also recalculate the Grants’] resale transaction and in
so doing the city must take into consideration the $100 earnest
money and the $2,200 of HOME funds provided by the state of
Virginia. The city must also give consideration for any capital
improvements that were made. Once this has been accomplished
the city must give credit for the $669.20 that was returned to the
Grant[s] in order to determine the revised return on investment.
The resultant calculation must also be submitted to this office for
review and approval.
Id. at 3-4. The letter noted that “[t]hese corrective and remedial actions are consistent with 24
C.F.R. [§] 92.551 and are intended to prevent a continuation of the deficiency and to mitigate, to
the extent possible, the adverse impact to the involved homebuyers.” Id. at 4.
In an effort to resolve the matter, the City advised HUD that it would be willing to consider
the $2,200.00 HOME grant from the state, along with the $100.00 paid out-of-pocket by the Grants
at the time of closing, as the Grants’ homeowner investment, and reapply the resale formula in the
Restrictive Covenants to determine the amount to which the Grants’ were entitled. See Hypes
Aff. U 26. This would have resulted in the Grants receiving an additional $2,012.67 from the net
proceeds of the sale of the Property. Id.

27. However, HUD rejected the City’s proposal,

“maintained its finding against the City,” and required the City to either return $68,530.00 in

11

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 12 of 26 Pageid#: 423

HOME funds or settle with the Grants for an amount to be approved by HUD.4 Id f 28. The
City chose the former course and transferred $68,530.00 from the City’s general fund to its HOME
Investment Trust Fund. Id. Tf 29.
On January 11, 2016, the plaintiff filed the instant action against the City, seeking to
recover the $26,257.30 retained by the City from the sale of the Property.

In his original

complaint, the plaintiff asserted that the City’s actions violated the federal regulations codified at
24 C.F.R. § 92.254(a)(5) and his right to due process under the Fourteenth Amendment. See
Comply 10, 12, Docket No. 1.
On November 4, 2016, the City moved for summary judgment. The City argued that its
HOME resale policy complied with the HOME regulations in existence at the time the plaintiff and
Ms. Grant purchased the property. The City indicated, however, that it remained willing to pay
the plaintiff an additional $2,012.67. See Br. in Supp. of Mot. for Summ. J. 9, Docket No. 16; see
also Hypes Aff. ^ 30. The City did not specifically address the plaintiffs due process claim.
On December 5, 2016, the parties appeared before the court for a hearing on the City’s
motion for summary judgment. During the hearing, the court raised the issue of whether the
plaintiff has a private right of action under the statutory and regulatory provisions at issue. The
court also inquired as to whether the parties would be interested in participating in mediation.
The parties agreed to mediate their dispute and the matter was referred to a United States
Magistrate Judge for the conduct of mediation proceedings. During the mediation proceedings,
the City agreed to settle the matter for an amount that was higher than it had initially offered to pay
the plaintiff. However, the plaintiff ultimately refused to sign the proposed settlement agreement.

4 According to the City’s evidence, HUD determined that $68,530.00 in federal HOME funds had been
invested in the Property. See Hypes Aff. ^ 29.
12

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 13 of 26 Pageid#: 424

On February 24,2017, the court entered an order directing the parties to file supplemental
briefs on the issue of whether the plaintiff has a private right of action under the HOME provisions
in question. Both sides submitted supplemental pleadings on that issue,5 and the court heard
additional oral argument on May 19,2017. The matter is now ripe for review.
Standard of Review
Rule 56 of the Federal Rules of Civil Procedure permits a party to move for summary
judgment. “The court shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). In deciding whether to grant a summary judgment motion, the court must view the
record in the light most favorable to the nonmoving party and draw all reasonable inferences in his
favor. Anderson v. Liberty Lobby, Inc., 477 U.S. 242. 255 (1986).
Discussion
I.

Statutory and regulatory claims

The plaintiff claims that the resale formula set forth in the Restrictive Covenants is
“illegal” under 24 C.F.R. § 92.254(a)(5), and that he should be awarded all of the sales proceeds
retained by the City. See Compl. f 8 (“This action of seizure or recapture by the City... is illegal
under 24 CFR [§] 92.254(a)(5).”); id % 13 (seeking “damages of $26,257.30”).
As discussed above, the regulation at issue is part of a .series of regulations implementing
the HOME Act. It is undisputed that the HOME Act does not expressly provide a private right of
action for damages for alleged violations of the statutory and regulatory provisions governing the
distribution and use of HOME funds. Grant argues, however, that a private right of action for

5 Grant moved to supplement his complaint, and the City filed a supplemental motion for summary
judgment. Grant’s motions will be granted.
13

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 14 of 26 Pageid#: 425

damages can be implied from the HOME Act, and, alternatively, that he may pursue a claim for
damages under 42 U.S.C. § 1983. The court will address these arguments in turn.
A.

Implied right of action under the HOME Act

“[T]he fact that a federal statute has been violated and some person harmed does not
automatically give rise to a private cause of action in favor of that person.” Cannon v. Univ. of
Chi.. 441 U.S. 677, 688 (1979). Private rights of action to enforce federal laws, whether explicit
or implicit, must be created by Congress. See Alexander v. Sandoval. 532 U.S. 275,286 (2001).
When legislation is enacted pursuant to Congress’ spending power, the “typical remedy for . . .
noncompliance with federally imposed conditions is not a private cause of action for
noncompliance but rather action by the Federal Government to terminate funds to the State [or
municipality].” Gonzaga Univ. v. Doe. 536 U.S. 273, 280 (2002) (quoting Pennhurst State Sch.
& Host), v. Halderman. 451 U.S. 1, 28 (1981)). If Congress chooses to confer individual rights
subject to private enforcement, the statute must “speak[] with a clear voice, and manifesto an
unambiguous intent to confer individual rights.” Gonzaga Univ. v. Doe. 536 U.S. 273, 280
(2002) (citation and internal quotation marks omitted).
Thus, “[t]he question whether a statute creates a cause of action, either expressly or by
implication, is basically a matter of statutory construction.” Transamerica Mortg. Advisors v.
Lewis. 444 U.S. 11, 15 (1979). The “central inquiry” is whether Congress intended to create a
private cause of action. Touche Ross & Co. v. Redington, 442 U.S. 560, 575 (1979). ‘“[UJnless
this congressional intent can be inferred from the language of the statute, the statutory structure, or
some other source, the essential predicate for implication of a private remedy simply does not
exist.’” Thompson v. Thompson. 484 U.S. 174,179 (1988) (quoting Nw. Airlines. Inc, v. Transn.
Workers Union, 451 U.S. 77, 94 (1981)); see also Stoneridge Inv. Partners. LLC v.

14

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 15 of 26 Pageid#: 426

Scientific-Atlanta. Inc.. 552 U.S. 148, 164 (2008) (observing that “it is settled that there is an
implied cause of action only if the underlying statute can be interpreted to disclose the intent to
create one”) (citations omitted).
In Gonzaga, the Supreme Court discussed the test for determining whether a statute
provides an implied right of action. See 536 U.S. at 290. The Court emphasized that “for
Congress to create new rights enforceable under an implied right of action,” it must do so in “clear
and unambiguous terms.”6 Id. The Court explained that “‘the question whether Congress . . .
intended to create a private right of action [is] definitively answered in the negative’ where a
‘statute by its terms grants no private rights to any identifiable class.’” Id at 283-84 (quoting
Touche Ross & Co.. 442 U.S. at 576) (omission and alteration in original). “For a statute to create
such private rights, its text must be ‘phrased in terms of the persons benefited.’” Id. at 284
(quoting Cannon. 441 U.S. at 692 n.13). The Court noted that it had “recognized, for example,
that Title VI of the Civil Rights Act of 1964 and Title IX of the Education Amendments Act of
1972 create individual rights because those statutes are phrased ‘with an unmistakable focus on the
benefited class. ,„7 Id. (quoting Cannon, 441 U.S. at 691) (emphasis in original). Conversely,
the Court has observed that “[statutes that focus on the person regulated rather than the
individuals protected create ‘no implication of an intent to confer rights on a particular class of

6 Although the precise issue in Gonzaga was whether a statute created rights enforceable in an action
under 42 U.S.C. § 1983, the Supreme Court noted that “[a] court’s role in discerning whether personal rights
exist in the § 1983 context should ... not differ from its role in discerning whether personal rights exist in the
implied right of action context.” 536 U.S. at 285. “Both inquiries simply require a determination as to whether
or not Congress intended to confer individual rights upon a class of beneficiaries.” Id. (citations omitted).
7 Title VI provides that “[n]o person in the United States shall, on the ground of race, color, or national
origin, be excluded from participation in, be denied the benefits of, or be subjected to discrimination under any
program or activity receiving Federal financial assistance.” 42 U.S.C. § 2000d. Title IX provides that “[n]o
person in the United States shall, on the basis of sex, be excluded from participation in, be denied the benefits of,
or be subjected to discrimination under any educational program or activity receiving Federal financial
assistance.” 20 U.S.C. § 1681(a).
15

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 16 of 26 Pageid#: 427

persons.”’ Alexander, 532 U.S. at 289 (quoting California v. Sierra Club. 451 U.S. 287, 294
(1981)).
Applying these principles, the Gonzaga Court held that the statutory provisions under
consideration failed to confer enforceable rights. The plaintiff in Gonzaga attempted to bring a
civil action to enforce provisions of the Family Educational Rights and Privacy Act of 1974
(“FERPA”), which was enacted pursuant to Congress’ spending power. See Gonzaga. 536 U.S.
at 276. FERPA provides, in pertinent part, that “[n]o funds shall be made available ... to any
educational agency or institution which has a policy or practice of permitting the release of
educational records ... of students without the written consent of their parents.” 20 U.S.C. §
1232g(b)(l). Under § 1234c(a) of Title 20, the Secretary of Education may terminate funding
only if the educational agency or institution fails to “comply substantially” with FERPA’s
requirements. See 20 U.S.C. § 1234c(a).
In holding that the FERPA’s nondisclosure provisions do not create enforceable rights, the
Supreme Court first determined that FERPA’s nondisclosure provisions “lack the sort of
‘rights-creating’ language critical to showing the requisite congressional intent to create new
rights.” Gonzaga, 536 U.S. at 287 (citing Alexander, 532 U.S. at 288-89). The Court contrasted
the wording of the nondisclosure provisions with the individually focused terminology of Title VI
and Title IX. See id. The Court emphasized that unlike those statutes, the FERPA provisions at
issue “speak only to the Secretary of Education, directing that ‘no funds shall be made available’ to
any ‘educational agency or institution’ which has a prohibited ‘policy or practice.’” Id. (quoting
20 U.S.C. § 1232g(b)(l)).
The Supreme Court further determined that the nondisclosure provisions have an
“‘aggregate’ focus . . . [and] are not concerned with ‘whether the needs of any particular person

16

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 17 of 26 Pageid#: 428

have been satisfied.’” Id at 288 (quoting Blessing v. Freestone. 520 U.S. 329, 343-44 (1997)).
The Court explained that the nondisclosure provisions “speak only in terms of institutional policy
and practice, not individual instances of disclosure.” Id The Court also found significant the
fact that “[rjecipient institutions can further avoid termination of funding so long as they ‘comply
substantially’ with the Act’s requirements.” Id (quoting 20 U.S.C. § 1234c(a)). The Court
observed that its finding on this issue was “not unlike Blessing, which found that Title IV-D [of the
Social Security Act] failed to support a § 1983 suit in part because it only required ‘substantial
compliance’ with federal regulations.” Id. (quoting Blessing, 520 U.S. at 335, 343).
Finally, the Gonzaga Court noted that its “conclusion that FERPA’s nondisclosure
provisions fail to confer enforceable rights is buttressed by the mechanism that Congress chose to
provide for enforcing those provisions.”

Id at 289.

Specifically, “Congress expressly

authorized the Secretary of Education to ‘deal with violations’ of the Act, [20 U.S.C.] § 1232g(f),
and required the Secretary to ‘establish or designate [a] review board’ for investing and
Id. (emphasis and alteration in original).

adjudicating such violations, § 1232g(g).”

Additionally, the statute’s implementing regulations “permit[] students and parents who suspect a
violation of the Act to file individual written complaints,” and set forth the procedures by which
such complaints will be investigated. See id. (citation omitted). The Supreme Court determined
that such procedures “further counsel against . . . finding a congressional intent to create
individually enforceable rights.” Id. at 290.
Thus, Gonzaga makes clear that the court must examine the text and structure of a statute in
order to determine whether it clearly and unambiguously creates a private right of action. If the
statute’s text and structure “provide no indication that Congress intends to create new individual
rights, there is no basis for a private suit.” Id. at 286. Likewise, “[i]f they provide some

17

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 18 of 26 Pageid#: 429

indication that Congress may have intended to create individual rights, and some indication it may
not have, that means Congress has not spoken with the requisite ‘clear voice,’” and such
“[ajmbiguity precludes enforceable rights.” 31 Foster Children v. Bush. 329 F.3d 1255, 1270
(11th Cir. 2003) (citing Gonzaga. 536 U.S. at 280).
In this case, the plaintiffs claim for damages appears to be based on Section 215 of the
HOME Act, which sets forth the requirements that housing for rental and homeownership must
meet in order to qualify as “affordable housing” for purposes of the Act. See 42 U.S.C. § 12745.
Of particular importance here, Section 215(b) provides that homeownership housing must be
subject to either resale or recapture provisions, and that resale provisions must allow for
subsequent purchase at a price that will “provide the owner with a fair return on investment,
including any improvements,” and ‘‘ensure that the housing will remain affordable to a reasonable
range of low-income homebuyers.” See id § 12745(b)(3)(A).
No federal court of appeals has expressly decided whether any provisions of the HOME
Act confer on individuals a private right of action to enforce those provisions. At least two
district courts have summarily concluded that there is no private right of action under the HOME
Act. See Bartlinski v. Township of Bricktown, No. 16-8928-BRM-LHG, 2016 U.S. Dist. LEXIS
171800, at *5, 2016 WL 7217613, at *2 (D.N.J. Dec. 13, 2016) (holding that the statutory
provisions “do[] not create a private right of action for the misuse of HOME funds”) (citing Oti
Kaga, Inc, v. S.D. Hous. Dev. Auth., 188 F. Supp. 2d 1148, 1166 (D.S.D. 2002), affd, 342 F.3d
871, 884 (8th Cir. 2003)); Pinkney v. City of Jersey City Dep’t of Hous. & Econ. Dev., No.
OO-cv-01049, slip op. at 3 (D.N.J. June 30,2000) (holding that the HOME Act “does not provide a
civil cause of action for a private litigant to proceed in federal court”). Another district court has

18

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 19 of 26 Pageid#: 430

“decline[d] to sua sponte” imply a private right of action for “discrimination in the use of HOME
funds.” See Oti Kaga, 188 F. Supp. 2d at 1166.
For many of the same reasons discussed in Gonzaga, this court concludes that the
applicable provisions of the HOME Act do not create a private right of action for money damages.
Like the provisions at issue in Gonzaea. the HOME Act does not contain the individually focused,
rights-creating language necessary to establish the requisite congressional intent to create new
rights.

See Gonzaea, 536 U.S. at 287. Although “the owner” of a residence rehabilitated

through the use of HOME funds is one of the beneficiaries of the resale provisions described in
Section 215 of the Act, the language at issue is directed toward the participating jurisdictions and
the Secretary of HUD, rather than the individuals benefited by the statute. See 42 U.S.C. §
12745(b)(3) (stating that resale restrictions must be “established by the participating jurisdiction
and determined by the Secretary to be appropriate”). In other words, the references to individual
owners are made in the context of describing what the resale policies established by participating
jurisdictions and approved by the Secretary are supposed to ensure. “[Sjuch provisions ‘cannot
make out the requisite congressional intent to confer individual rights[.]”’ 31 Foster Children,
329 F.3d at 1272 (quoting Gonzaga, 536 U.S. at 289) (holding that provisions of the Adoption Act
describing what a case review procedure is supposed to ensure do not confer individual rights
despite the provisions’ references to individual children and their placements).
Moreover, the statutory provision as a whole is instructional in nature, in that it delineates
the requirements that must be met in order for housing to “qualify as ‘affordable housing’” under
the HOME Act. See 42 U.S.C. § 12745. Thus, when considered in conjunction with Section
212, the statute serves as a “directive” for the “distribution of public funds,” Alexander, 532 U.S.
at 289 (citation and internal quotation marks omitted), which must be used for certain “affordable

19

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 20 of 26 Pageid#: 431

housing” activities, see 42 U.S.C. § 12742(a). As indicated above, “[statutes that focus on the
person regulated rather than the individuals protected” do not tend to create individually
enforceable rights. Gonzaga. 536 U.S. at 287 (quoting Alexander, 532 U.S. at 289); see also
Midwest Foster Care & Adoption Ass’n v. Kincade, 712 F.3d 1190, 1200 (8th Cir. 2013)
(explaining that “[w]here the statutory language primarily concerns itself with commanding how
states are to function within a federal program, the statute is less likely to have created an
individually enforceable right”); Hughlett v. Romer-Senskv. 497 F.3d 557, 563 (6th Cir. 2006)
(holding that the district court properly found that a statutory provision describing the methods that
must be in place for the collection and distribution of collected child support payments was
“intended to provide instruction to the States and d[id] not contain the rights-creating language
necessary to create an enforceable individual right”).
In addition, the enforcement scheme of the HOME Act militates against the conferral of
individually enforceable rights.

Rather than requiring perfect compliance with the Act,

participating jurisdictions can avoid the termination of federal funding as long as they “comply
Substantially” with the Act’s provisions. See 42 U.S.C. § 12753 (listing the penalties that may be
imposed “[i]f the Secretary finds after reasonable notice and opportunity for hearing that a
participating jurisdiction has failed to comply substantially with any provision of this part”). The
fact that a statute links funding to substantial compliance with its conditions, while not dispositive
of the issue, also suggests that the statute has an aggregate, rather than individual, focus. See
Gonzaga. 536 U.S. at 288 (concluding that the provision of FERPA that allows recipient
institutions to avoid termination of funding as long as they “comply substantially” with the
statutory requirements indicates an aggregate focus); see also Midwest Foster Care, 712 F.3d at
1200-01 (explaining that “[a] substantial compliance regime cuts against an individually

20

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 21 of 26 Pageid#: 432

enforceable right because, even where a state substantially complies with its federal
responsibilities, a sizeable minority of its beneficiaries may nonetheless fail to receive the full
panoply of offered benefits”).
Finally, the court notes that the centralized enforcement scheme created by Congress,
while perhaps not as comprehensive as that provided under FERPA, nonetheless epitomizes the
remedies found in legislation enacted pursuant to the Spending Clause. As indicated above, the
“typical remedy” for noncompliance with federally-imposed funding conditions is “not a private
cause of action for noncompliance but rather action by the Federal Government to terminate funds
to the state [or municipality].” Pennhurst. 451 U.S. at 28. In Gonzaga. the Supreme Court made
clear that “unless Congress ‘speaks with a clear voice,’ and manifests an ‘unambiguous’ intent to
confer individual rights, federal funding provisions provide no basis for private enforcement.”
536 U.S. at 280.
Since Pennhurst was decided, the Supreme Court has only twice found that statutes passed
pursuant to the Spending Clause gave rise to enforceable rights, and one of those cases was against
the City’s public housing authority. See Gonzaga, 536 U.S. at 280-81. In Wright v. Roanoke
Redevelopment & Housing Authority, 479 U.S. 418 (1987), the Supreme Court held that a
rent-ceiling provision of the Housing Act created a federal right enforceable under 42 U.S.C. §
1983, since the provision unambiguously conferred a mandatory benefit that was focused on the
individual family and its income. 479 U.S. at 430. The statute expressly provided that “tenants
could be charged as rent no more and no less than 30 percent of their income.” Id. In Gonzaga,
the Supreme Court explained that “[t]he key to [the Wright Court’s] inquiry was that Congress
spoke in terms that ‘could not be clearer,’ and conferred entitlements ‘sufficiently specific and
definite to qualify as enforceable rights under Pennhurst.’” 536 U.S. at 280. Likewise, in Wilder

21

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 22 of 26 Pageid#: 433

v. Virginia Hospital Ass’n. 496 U. S. 498 (1990), which involved a reimbursement provision of the
Medicaid Act, the Supreme Court concluded that “Congress left no doubt of its intent for private
enforcement,... because the provision required States to pay an ‘objective’ monetary entitlement
to individual health care providers,” with no sufficient administrative means of enforcement.
Gonzaea. 536 U.S. at 280 (citing Wilder. 496 U.S. at 522-23).
Upon review of the text and structure of the HOME Act, the court is convinced that the
same cannot be said in the instant case. Contrary to the statutes at issue in Wright and Wilder, the
HOME Act does not “explicitly confer[] specific monetary entitlements upon the plaintiff[],” or
otherwise evince Congress’ unambiguous intent for the Act’s provisions to be privately enforced.
Id. Instead, much like the provisions in Gonzaga. the applicable provisions of the HOME Act
lack the necessary rights-creating language, have an aggregate rather than individual focus, and
serve primarily to direct the distribution of HOME funds by the Secretary and the use of those
funds by participating jurisdictions. Therefore, the court concludes that the plaintiff does not
have an implied private right of action for monetary damages under the HOME Act.
B.

Enforcement under Section 1983

The plaintiff also contends that even if he lacks a right of action under the HOME Act
itself, 42 U.S.C. § 1983 provides him with a vehicle to enforce the provisions of the HOME Act
and the related federal regulations. Section 1983 imposes liability on anyone who, acting under
color of state law, deprives a person of “any rights, privileges, or immunities secured by the
Constitution and laws” of the United States. 42 U.S.C. § 1983. “In order to seek redress through
§ 1983, however, a plaintiff must assert the violation of a federal right, not merely a violation of
federal law.” Blessing. 520 U.S. at 340 (emphasis in original). “If there is no violation of a
federal right, there is no basis for a claim under § 1983.” Kalan v. Health Ctr. Comm’n of Orange

22

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 23 of 26 Pageid#: 434

Cntv.. 198 F. Supp. 3d 636, 641 (W.D. Va. 2016) (Conrad, C.J.) (citing Clark v. Link. 855 F.2d
156, 161 (4th Cir. 1988)).
In Gonzaga, the Supreme Court made clear that determining whether a statute confers
individual rights enforceable under § 1983 “is no different from the initial inquiry in an implied
right of action case.” 536 U.S. at 285. In light of the court’s conclusion that the provisions of the
HOME Act do not confer individual rights enforceable by the plaintiff, it necessarily follows that
the plaintiff cannot enforce those provisions under § 1983. See Clear Skv Car Wash LLC v. City
of Chesapeake. 743 F.3d 438,444 (4th Cir. 2014) (“Because we conclude that 42 U.S.C. §§ 4651
and 4655 do not confer individual rights enforceable by Clear Sky, we also conclude that Clear
Sky cannot enforce those sections under 42 U.S.C. § 1983.”).
The same is true for the federal regulations promulgated pursuant to the HOME Act. It is
well settled that a federal regulation, standing alone, “cannot create an enforceable § 1983 interest
not already implicit in the enforcing statute.” Smith v. Kirk. 821 F.2d 980, 984 (4th Cir. 1987);
see also Alexander. 532 U.S. at 291 (“Language in a regulation may invoke a private right of
action that Congress through statutory text created, but it may not create a right that Congress has
not.”); Save Our Valley v. Sound Transit. 335 F.3d 932, 943 (9th Cir. 2003) (“Plaintiffs suing
under § 1983 must demonstrate that a statute—not a regulation—confers an individual right.”)
(emphasis in original). Given the court’s conclusion that the provisions of the HOME Act do not
confer individual rights enforceable by the plaintiff, he cannot maintain a § 1983 action to enforce
the HUD regulations promulgated pursuant to the Act. See Johnson v. City of Detroit. 446 F.3d
614,629 (6th Cir. 2006) (“[I]n the instant case, because we conclude that the relevant provisions of
the [federal statutes at issue] do not confer personal federal rights upon plaintiff that are

23

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 24 of 26 Pageid#: 435

enforceable under § 1983, the federal regulations promulgated pursuant to these statutes are
likewise incapable of independently conferring such rights.”).
For these reasons, the court concludes that the plaintiff has no viable claim for damages
under the HOME Act itself or § 1983, for alleged violations of the Act and its implementing
regulations. Accordingly, to the extent the City seeks summary judgment on such claims, the
motion for summary judgment will be granted.
II.

Due process claim

Although the HOME Act does not provide the plaintiff with a federal cause of action, the
plaintiff’s complaint is not limited to claims based on the statute. Instead, the plaintiff also claims
that he was denied due process as required by the Fourteenth Amendment. See Compl.

12.

The Fourteenth Amendment to the United States Constitution protects citizens from being
deprived of “property” without “due process.” U.S. Const, amend. XIV, § 1. To establish a
violation of procedural due process, the plaintiff “must show that (1) [he] had property or a
property interest (2) of which the defendant deprived [him] (3) without due process of law.”
Sunrise Corp. v. City of Myrtle Beach. 420 F.3d 322,328 (4th Cir. 2005) (citing Sylvia Dev. Corp.
v. Calvert Cnty.. 48F.3d810, 826 (4th Cir. 1995)). Although the exact procedures required by
the Constitution depend on the circumstances of a given case, “[t]he fundamental requirement of
due process is the opportunity to be heard ‘at a meaningful time and in a meaningful maimer.’”
Mathews v. Eldridge, 424 U.S. 319, 333 (1976) (quoting Armstrong v. Manzo. 380 U.S. 545, 552
(1965)).
The City did not address the due process claim in the briefs filed in support of its motion for
summary judgment. When questioned by the court at the recent hearing, the City appeared to
acknowledge that the plaintiffs allegations may implicate a protected property interest. See, e.g..

24

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 25 of 26 Pageid#: 436

Pater v. City of Casper. 646 F.3d 1290, 1294 (10th Cir. 2011) (“Constitutionally protected
property interests are created and defined by statute, ordinance, contract, implied contract and
rules and understandings developed by state officials. Thus, for example, courts have identified
property interests arising from ... restrictive covenants between government agencies and private
parties. And, of course, ownership of land or real estate is a quintessential source of property
interests.”) (citations and internal quotation marks omitted). The City argued, however, that the
plaintiff received adequate process.
The problem with the City’s argument is that it is just that—argument. There is very little
evidence in the record regarding the substance and extent of the City’s communications with the
plaintiff regarding the sale of the Property, the Restrictive Covenants, or the formula set forth
therein for dividing the proceeds from the sale. For instance, the Restrictive Covenants state that
die sale of the Property “shall allow the owner a fair return on investment,” and that “[b]y this is
meant that the owner . . . may recover the amount of. . . any capital improvement investment.”
Restrictive Covenants 1 (emphasis added). Although the affidavit submitted With the City’s
original motion summarily states that the plaintiff “did not make any eligible capital improvements
to the Property,” Hypes Aff, 33 (emphasis added), there is no indication that the plaintiff and Ms.
Grant were advised of what improvements would be considered eligible for purposes of
determining a fair return on their investment. Nor is there any evidence establishing that the City
provided the plaintiff an adequate opportunity to be heard on that issue.
In any event, because the City did not address the due process claim in its. motions for
summary judgment, the plaintiff was not on notice that he was required to produce evidence to
support the claim.

Accordingly, the court declines to consider the claim sua sponte or to

otherwise address the arguments made by the City for the first time during oral argument. See

25

Case 7:16-cv-00007-MFU Document 38 Filed 07/18/17 Page 26 of 26 Pageid#: 437

Fed. R. Civ. P. 56(f) (providing that the court may grant a motion for summary judgment on
grounds not raised by a party only “[a]fter giving notice and a reasonable time to respond”); see
also Jehovah v. Clarke. 798 F.3d 169, 177 (4th Cir. Va. 2015) (holding that the district court
improperly granted summary judgment to the defendant on a ground that was not raised or
addressed in the parties’ summary judgment briefing). The court will permit the City to file a
supplemental motion for summary judgment raising these and any other arguments it wishes to
make regarding the viability of the plaintiffs due process claim. Such motion must be filed
within twenty-one days of the date of entry of this memorandum opinion and the accompanying
order. The plaintiff will have twenty-one days thereafter in which to file a response.
Conclusion
For the reasons stated, the pending motions for summary judgment filed by the City are
granted in part and denied in part. The Clerk is directed to send copies of this memorandum
opinion and the accompanying order to the plaintiff and all counsel of record.
DATED: This

day of July, 2017.

United States District Judge

26

